No. ____________
IN THE
SUPREME COURT OF THE UNITED STATES
_______________
ETHAN HOGGATT, et al., Petitioners

v.
ALLSTATE INSURANCE, et al., Respondents
_______________

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT
____________
PETITION FOR A WRIT OF CERTIORARI
____________

Victoria Jean Johnson Hoggatt
Attorney at Law
60094 Tubb Drive
Amory, MS 38821-9164
erichoggatt@aol.com
(830) 570-1299

Counsel of record for Petitioners

QUESTIONS PRESENTED
Petitioners, the Hoggatts, filed criminal fraud charges with the Mississippi
Attorney General against Allstate a month prior to filing of this civil action. They
later amended their criminal affidavit during the lawsuit, and filed a Motion to
Amend their civil complaint. The District Court sanctioned and fined the Hoggatts
for filing their amended criminal affidavit with the Mississippi Attorney General
and Mississippi Insurance Department, and for filing their Motion to Amend, and
additionally sanctioned and fined the Hoggatts for attempting Interlocutory Appeal.
The Hoggatts Amended Complaint asserted Allstate’s Negligence per Se liability,
due to Allstate’s numerous violations of state and federal law, pre and post filing.
The District Court ordered additional fines against the Hoggatt for filing a
Rule 60 motion, post dismissal, and directed additional attorneys’ fees, and
additional attorneys’ fees paid to Allstate for preparing a Motion for Contempt.
FEDERAL ISSUE OF FIRST IMPRESSION
Do Petitioners have an absolute right under the Fair Credit Reporting Act
and Mississippi’s Unfair and Deceptive Trade Practices Act to have the reports
upon which their insurance was cancelled?
FIRST AMENDMENT QUESTIONS
Does the 1st Amendment’s guarantee of the right to petition the government
mean that a federal district court may not punish, fine, and hold in contempt of
court an attorney or civil litigant, for filing an amended criminal affidavit, with the
FTC, the Mississippi Insurance Department, and to the Mississippi Attorney
General’s Office for conduct that Allstate committed after initiation of this civil
action, even if the alleged criminal conspirators include Allstate attorneys?
Do the Hoggatts have a right, under the Fair Credit Reporting Act and the
First Amendment, to report Allstate’s intentionally fraudulent and retaliatory
“Notice of Non-Renewal” directed to Dr. and Mrs. Hoggatt?
ABUSE OF DISCRETION
Did the district court abuse its discretion when denying the Hoggatts’ Motion
to Amend with additional parties and tort claims, including, but not limited to,
negligence per se claims for Allstate’s documented conspiracy to act in concert to
commit many documented crimes, i.e., fraud, wire fraud, mail fraud, witness
retaliation, witness intimidation, civil rights violations, and for destruction of
evidence to impair its use in an official proceeding, committed post-filing?

ii.
List of Parties
All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition for a writ of certiorari is as follows:
Petitioners Ethan Hoggatt, Eric Hoggatt, DDS, and Plaintiffs 3-29, who were
Allstate Insureds sold similar bogus “Dummy” insurance policies, were Plaintiffs in
the district court below, and are Petitioners in this petition for a writ of certiorari.
Defendants in the case below were Allstate Casualty and Insurance
Company, Allstate agent Andy Dyson, and Suzanne Hand, an employee of Allstate
agent Andy Dyson’s agency.
Petitioners sought to amend their complaint to add the president of Allstate
Casualty and Insurance who signed Ethan Hoggatt’s void-at-inception ‘policy’, Cory
Radicioni, Charles Cowan, Wise Carter Child & Caraway P.A. law firm, and
Allstate Customer Resolution Specialist “Jennifer”, identifiable as CRS349, Allstate
Customer Resolution Specialist, Phone (800)995-2566, Email CRS349@Allstate.com,
as parties defendant for fraudulent and tortuous conduct committed after the filing
of this civil action.
Attorney Danielle Love Burks has interest in this petition; the district court
awarded to her attorney’s fees, as counsel for Allstate, though she was not an
attorney of record. She will be affected if the sanctions issued by the district court
are eventually overturned.

iii.
TABLE OF CONTENTS
QUESTIONS PRESENTED……………………………………………...i.
PARTIES TO THE PROCEEDINGS……………………………………ii.
TABLE OF CONTENTS ………………………………………………….iii.
INDEX TO APPENDICES………………………………………………..v.
TABLE OF AUTHORITIES………………………………………………vii.
PETITION FOR A WRIT OF CERTIORARI …………………………..1
OPINIONS BELOW.....................................................................……..1
JURISDICTION.............................................................................……3
CONSTITUTIONAL AND STATUTORY PROVISIONS……………..4
STATEMENT OF THE CASE ................................. ……………………
REASONS FOR GRANTING THE WRIT..............................................
I.

Federal Courts of Appeals Are Unanimous that petitioning law
enforcement for redress is protected by the 1st Amendment

•

II.

The Questions Presented are Exceptionally Important..

III.

The Fifth Circuit’s Decision Is Wrong.........Why?

Because Allstate insurance never had a contract of insurance

with Ethan Hoggatt. The district court erred in dismissal for failure to state a claim
in common law fraud, civil RICO, and common law contract.
The Hoggatts’ negligence per se claims, due to Respondents’ criminal acts
are valid, strong, and well documented. Allstate’s criminal acts are currently under
investigation by the Mississippi Attorney General’s office.

•

Because both the Federal Trade Commission and the Mississippi

Attorney General are statutorily designated FCRA enforcement agencies; the
Hoggatts’ filing a complaint alleging criminal acts, including use of the mails to
intentionally commit FCRA violations, was both proper and constitutionally
protected.
Because a policyholder has a right to file a written complaint against
an insurance company with the Mississippi Department of Insurance.
Because Petitioners Amended complaint validly asserted Negligence
per Se for Allstate’s criminal acts; Allstate’s tortuous acts committed after this
lawsuit was instigated should be fair game for civil action.
Because the district court opinion has the aim and effect of chilling a victim’s
First Amendment rights.
Because the district court’s civil contempt sanctions constitute an
unwarranted, damaging, and widely published public reprimand.

CONCLUSION.............................................................................................

v.
INDEX TO APPENDICES
APPENDIX A

February 19, 2021 Decision of the United States Court of Appeals
for the Fifth Circuit, unreported, USCA Case No. 20-60783

APPENDIX B

November 23, 2020 Order of the District Court Holding
the Hoggatts in Contempt of Court

APPENDIX C

October 7, 2020 Order Denying Rule 60 Motion for Relief from
Judgment; Denying Motion for Stay of Sanctions; Granting
Motion for Contempt

APPENDIX D

July 23, 2020 United States District Court Order of Dismissal

APPENDIX E

July 23, 2020 Order Denying Certificate of Appealability; denying
Motion to Appeal Magistrate Judge Decision and Awarding
Additional Attorneys’ Fees

APPENDIX F

March 5, 2020 District Court Order Denying Motion for
Emergency Hearing

APPENDIX G

September 20, 2019 District Court Order Granting Hoggatts’
Motion to Stay

APPENDIX H

August 18, 2019 District Court Order Granting in Part and
Denying in Part Motion for Sanctions; Granting Motion for
Protective Order; Finding as moot Motion to file; Denying Motion
to Amend or Correct

APPENDIX I

March 13, 2019 District Court Order Denying Hoggatts’
Emergency Motion to Remand to State Court

APPENDIX J

Letters from LexisNexis, showing that LexisNexis never
prepared reports upon which the cancellation of Dr. and Mrs.
Hoggatt’s own insurance was based, as Allstate fraudulently
alleged by the US mails in its Notice of Non-renewal

APPENDIX K

Emails and letter from Allstate counsel Charles Cowan
fraudulently asserting by wire that FRCA reports due the
consumer upon non-renewal must be gotten through civil
discovery

vi.
APPENDIX L

Letter from Allstate agent “Jennifer”, citing conflicting reasons
for cancellation of Dr.. and Mrs. Hoggatt’s own policy, “claim
frequency”, cf. Allstate fraudulent Notice of Non-renewal

APPENDIX M

MISSISSIPPI POLICYHOLDER’S BILL OF RIGHTS

APPENDIX N

Victoria Hoggatt's April 1, 2019 letter in response to Allstate
fraudulent Notice of Non-renewal of her own insurance

APPENDIX O

SCREENSHOT OF FREEDOM SONG CLE, SHOWING
WHEELER VIDEO USED AS EXHIBITS IN EARLIER CASES

vii.
TABLE OF AUTHORITIES
Page
Cases

Arim v. General Motors Corporation,

520 N.W. 2d 695 (Mich. Ct. App. 1994)…………..

Bell Atlantic Corp. v. Twombly,

127 S. Ct. 1955, 1965 (2007)………………………

38
34

California Motor Transp. Co. v. Trucking Unlimited,……. 29
404 U.S. 508, 510 (1972).

Curry v. State,

811 So.2d 736, 743 (Fla. Dist. Ct. App. 2002)……. 30

Dallas v. Premier Vehicle Transp., Inc.,

No. 1:16-CV-358-LG-RHW, 2017 WL 3389793,….. 35
at *2 (S.D. Miss. Aug. 7, 2017)

Estate of Morris ex. Rel. Morris v. Dapolito,

297 F. Supp. 2d 680, 692 (S.D.N.Y. 2004)………..

Gable v. Lewis,

201 F.3d 769, 771 (6th Cir. 2000)………………….

Jebaco Inc. v. Harrah’s Operating Co.,

587 F.3d 314, 318 (5th Cir. 2009)………………….

Lormand v. US Unwired,

565 F.3d 228, 257 (5th Cir. 2009)………………….
35
Lott v. Andrews Ctr.,
259 F. Supp. 2d 564, 568 (E.D. Tex. 2003)………

Rolf v. City of San Antonio,

77 F.3d 823, 828 (5th Cir. 1996)……….

29
29
34
34
30

33

viii.

United States v. Cruikshank,

92 U.S. 542, 552 (1875)……………………………

United States v. Hylton,

558 F. Supp. 872, 874 (S.D. Tex. 1982)….

29
30

CONSTITUTIONAL AND STATUTORY PROVISIONS
FIRST AMENDMENT,
U.S. Const. amend. I…………………………………………29, 30, 35, 38
18 U.S.C. § 1341 – Frauds and swindles, Mail fraud … 3, 15, 17, 19
18 U.S. Code § 1343 – Fraud by wire…..

14, 18

1343 18 U.S.C. § 1344 Bank fraud ……………………..

3, 19

18 U.S. Code § 1513 – Retaliating against a witness, victim,
or an informant……………………………………………
3, 19
18 U.S.C. § 1519, SOX ……………………………………

4, 27

15 U.S.C. § 1681s § 621. Administrative enforcement ..

4, 24

42 U.S.C. § 1985 Conspiracy to interfere with civil rights.. 5, 23
Federal Rules of Civil Procedure
Fed. R. Civ. P.16(b) SCHEDULING………………………

5, 6, 8

Local Rules
L.U.Civ.R.16. (a) PRETRIAL CONFERENCES……….

5, 6, 8

ix.

OTHER AUTHORITY, TREATISES, AND ARTICLES

Mississippi Policyholder’s Bill of Rights ………………..

25

MISSISSIPPI RULES OF PROFESSIONAL CONDUCT…….
26
RULE 4.2, Communications with Person Represented by Counsel

REPORTING CRIME: A VICTIM’S FIRST AMENDMENT RIGHT..31

Meg Garvin, NCVLI Lead Staff Attorney, National Crime Victim Law
Institute, NCVLI News fall/winter 2004

1

PETITION FOR A WRIT OF CERTIORARI
Petitioners Ethan Hoggatt, Dr. Eric Hoggatt, and Plaintiffs 3-29, who are
Allstate Insureds sold similar bogus “Dummy” insurance policies, petition for a writ
of certiorari to review the judgment of the U.S. Court of Appeals for the Fifth
Circuit in No. 20-60783.
OPINIONS BELOW
U. S. Court of Appeals for the Fifth Circuit Hoggatt, et al, v. Allstate Ins, et al, No.
20-60783, rendered February 9, 2021 is not published, and is reproduced at Pet.
App. 1a.
United States District Court for the Northern District of Mississippi Ethan Hoggatt,
et al v. Allstate, et al, No. l:19-cv-14 rendered on November 23, 2020, Order holding
Petitioners and their counsel in contempt, is published at 502 F.Supp.3d 1110
(2020) [ND Miss 2020]), and is reproduced at Pet. App. 7a.
United States District Court for the Northern District of Mississippi Ethan Hoggatt,
et al v. Allstate, et al, No. l:19-cv-00014 Order Denying Rule 60 Motion for Relief
from Judgment, Denying Motion for Stay of Sanctions, Granting Motion for
Contempt, October 7, 2020, is not published and is reproduced at Pet. App. 15a.
U. S. District Court for the Northern District of Mississippi opinion dismissing with
prejudice Ethan Hoggatt, et al v. Allstate, et al, No. l:19-cv-00014, July 23, 2020 is
not published, and is reproduced at Pet. App. 30a.
U. S. District Court for the Northern District of Mississippi opinion, Ethan Hoggatt,
et al v. Allstate, et al, No. l:19-cv-00014, Order denying Plaintiffs’ motion for
certificate of appealability and motion to appeal the Magistrate Judge’s decision
July 23, 2020, is not published and is reproduced at Pet. App. 39.
U. S. District Court for the Northern District of Mississippi, Ethan Hoggatt, et al v.
Allstate, et al, No. l:19-cv-00014, March 5, 2020 Order Denying Motion for
Emergency Hearing is not published, and is reproduced at Pet. App. 48

2

U. S. District Court for the Northern District of Mississippi, Ethan Hoggatt, et al v.
Allstate, et al, No. l:19-cv-00014, Granting Motion to Stay, September 20, 2019, is
not published, and is reproduced at Pet. App. 49.
U. S. District Court for the Northern District of Mississippi, Ethan Hoggatt, et al v.
Allstate, et al, No. l:19-cv-00014, Order Granting in Part and Denying in Part
Motion for Sanctions; Granting Motion for Protective Order; Finding as moot
Motion to file; Denying Motion to Amend or Correct rendered on August 18, 2019 is
reproduced at Pet. App. 50.
U. S. District Court for the Northern District of Mississippi, Ethan Hoggatt, et al v.
Allstate, et al, No. l:19-cv-00014, Order Denying Hoggatts’ Motion to Stay rendered
on September 20, 2019 is reproduced at Pet. App. 49.
U. S. District Court for the Northern District of Mississippi, Ethan Hoggatt, et al v.
Allstate, et al, No. l:19-cv-00014, Order Denying Hoggatts’ Motion to Remand to
State Court rendered on March 13, 2019 is reproduced at Pet. App. 61.
JURISDICTION
The date on which the United States Court of Appeals for the Fifth
Circuit decided this case was February 9, 2021. No petition for rehearing was
filed. The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS
Congress shall make no law respecting an establishment of religion, or m
prohibiting the free exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to assemble, and
to petition the Government for a redress of grievances. U.S. Const. amend. I
18 U.S. Code § 1341 - Frauds and swindles, in relevant part, states,
Whoever, having devised or intending to devise any scheme or artifice to defraud, or
for obtaining money or property by means of false or fraudulent pretenses,
representations…for the purpose of executing such scheme or artifice or attempting
so to do, places in any post office or authorized depository for mail matter, any
matter or thing whatever to be sent or delivered by the Postal Service, or deposits or
causes to be deposited any matter or thing whatever to be sent or delivered by any

3

private or commercial interstate carrier, or takes or receives therefrom, any such
matter or thing, or knowingly causes to be delivered by mail or such carrier
according to the direction thereon, or at the place at which it is directed to be
delivered by the person to whom it is addressed, any such matter or thing, shall be
fined under this title or imprisoned not more than 20 years, or both. If the violation
occurs in relation to…or affects a financial institution, such person shall be fined
not more than $1,000,000 or imprisoned not more than 30 years, or both.
18 U.S. Code § 1343 - Fraud by wire, in relevant part, states,
Whoever, having devised or intending to devise any scheme or artifice to defraud, or
for obtaining money or property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to be transmitted by means of
wire, radio, or television communication in interstate or foreign commerce, any
writings, signs, signals, pictures, or sounds for the purpose of executing such
scheme or artifice, shall be fined under this title or imprisoned not more than 20
years, or both. If the violation…affects a financial institution, such person shall be
fined not more than $1,000,000 or imprisoned not more than 30 years, or both.
18 U.S. Code § 1344 - Bank fraud, in relevant part, states,
Whoever knowingly executes, or attempts to execute, a scheme or artifice—…
(2) to obtain any of the moneys, funds, credits, assets, securities, or other property
owned by, or under the custody or control of, a financial institution, by means of
false or fraudulent pretenses, representations, or promises; shall be fined not more
than $1,000,000 or imprisoned not more than 30 years, or both.
18 U.S. Code § 1513 - Retaliating against a witness, victim, or an informant, in
relevant part, states,
(e) Whoever knowingly, with the intent to retaliate, takes any action harmful to any
person, including interference with the lawful employment or livelihood of any
person, for providing to a law enforcement officer any truthful information relating
to the commission or possible commission of any Federal offense, shall be fined
under this title or imprisoned not more than 10 years, or both.
(f) Whoever conspires to commit any offense under this section shall be subject to
the same penalties as those prescribed for the offense the commission of which was
the object of the conspiracy.
(g) A prosecution under this section may be brought in the district in which the
official proceeding (whether pending, about to be instituted, or completed) was
intended to be affected, or in which the conduct constituting the alleged offense
occurred.

4

18 U.S.C. § 1519, SOX (Sarbanes-Oxley Act) Destruction, alteration, or falsification
of records in Federal investigations and bankruptcy
Whoever knowingly alters, destroys, mutilates, conceals, covers up, falsifies, or
makes a false entry in any record, document, or tangible object with the intent to
impede, obstruct, or influence the investigation or proper administration of any
matter within the jurisdiction of any department or agency of the United States or
any case filed under title 11, or in relation to or contemplation of any such matter or
case, shall be fined under this title, imprisoned not more than 20 years, or both.
15 U.S.C. § 1681s § 621. Administrative enforcement, in relevant part, states,
a (1) Enforcement by Federal Trade Commission
The Federal Trade Commission shall be authorized to enforce compliance with the
requirements imposed by this subchapter…[Fair Credit Reporting Act]…
(c) STATE ACTION FOR VIOLATIONS
(1) AUTHORITY OF STATES In addition to such other remedies as are provided
under State law, if the chief law enforcement officer of a State, or an official or
agency designated by a State, has reason to believe that any person has violated or
is violating this subchapter, the State—
(A) may bring an action to enjoin such violation in any appropriate
United States district court or in any other court of competent jurisdiction;
(B)subject to paragraph (5), may bring an action on behalf of the residents of
the State to recover—
(i) damages for which the person is liable to such residents under
sections 1681n and 1681o of this title as a result of the violation;
(ii)in the case of a violation described in any of paragraphs (1) through (3) of section
1681s–2(c) of this title, damages for which the person would, but for section 1681s–
2(c) of this title, be liable to such residents as a result of the violation; or
(iii)damages of not more than $1,000 for each willful or negligent violation; and
(C)in the case of any successful action under subparagraph (A) or (B), shall be
awarded the costs of the action and reasonable attorney fees as determined by the
court.
42 U.S.C. § 1985

Conspiracy to interfere with civil rights, in relevant part, states,

(2) OBSTRUCTING JUSTICE; INTIMIDATING PARTY, WITNESS, OR JUROR

5

If two or more persons in any State or Territory conspire to deter, by force,
intimidation, or threat, any party or witness in any court of the United States from
attending such court, or from testifying to any matter pending therein, freely, fully,
and truthfully, or to injure such party or witness in his person or property on
account of his having so attended or testified, …or if two or more persons conspire
for the purpose of impeding, hindering, obstructing, or defeating, in any manner,
the due course of justice in any State or Territory, with intent to deny to any citizen
the equal protection of the laws, or to injure him or his property for lawfully
enforcing, or attempting to enforce, the right of any person, or class of persons, to
the equal protection of the laws;
(3) DEPRIVING PERSONS OF RIGHTS OR PRIVILEGES
If two or more persons in any State or Territory conspire, … for the purpose of
depriving, either directly or indirectly, any person or class of persons of the equal
protection of the laws, or of equal privileges and immunities under the laws; or for
the purpose of preventing or hindering the constituted authorities of any State or
Territory from giving or securing to all persons within such State or Territory the
equal protection of the laws; … in any case of conspiracy set forth in this section, if
one or more persons engaged therein do, or cause to be done, any act in furtherance
of the object of such conspiracy, whereby another is injured in his person or
property, or deprived of having and exercising any right or privilege of a citizen of
the United States, the party so injured or deprived may have an action for the
recovery of damages occasioned by such injury or deprivation, against any one or
more of the conspirators.
Federal Rules of Civil Procedure
Fed. R. Civ. P.16(b) SCHEDULING Pretrial Conferences; Scheduling; Management,
states in relevant part,
(a) PURPOSES OF A PRETRIAL CONFERENCE. In any action, the court may order the
attorneys and any unrepresented parties to appear for one or more pretrial
conferences for such purposes as:
(1) expediting disposition of the action;
(2) establishing early and continuing control so that the case will not be
protracted because of lack of management;
(3) discouraging wasteful pretrial activities;
(4) improving the quality of the trial through more thorough preparation; and
(5) facilitating settlement.
(b) SCHEDULING.
(1) Scheduling Order. Except in categories of actions exempted by local rule, the
district judge—or a magistrate judge when authorized by local rule—must issue a
scheduling order:
(A) after receiving the parties’ report under Rule 26(f); or

6

(B) after consulting with the parties’ attorneys and any unrepresented
parties at a scheduling conference.
(2) Time to Issue. The judge must issue the scheduling order as soon as
practicable, but unless the judge finds good cause for delay, the judge must issue
it within the earlier of 90 days after any defendant has been served with the
complaint or 60 days after any defendant has appeared.
Local Rules
L.U.Civ.R.16. (a) PRETRIAL CONFERENCES, states in relevant part,(a) Court
Order, The court will issue an Initial Order setting the deadline for the attorney
conference required by FED. R. CIV. P. 26(f) and a date for a case management
conference [CMC] with the magistrate judge. The court will strive to set the case
management conference within sixty days of the filing of the first responsive
pleading.
STATEMENT OF THE CASE
INTRODUCTION
1. This case, by all standards, has been bizarre.
2. Victoria Hoggatt, a sixty-nine-year-old attorney, admitted to the United States
Supreme Court Bar, the Bar for the Eastern District of Texas, the United State
Court of Appeals the 5th Circuit, and all federal courts in Mississippi, was first
employed as an attorney by the Mississippi State Legislature in 1978.
3. She has served as a Special Prosecutor, and taught junior high, high school, and
junior college, both before and after law school, and interned both as a youth
court counselor, and police officer for Grenada, Mississippi.
4. Victoria Hoggatt has been married for 43 years to her husband, a 71-year-old
respected dentist of “such outstanding character…high moral honesty,
integrity… cooperative yet humble with others”, Dr. Edward Senior. ROA.201 1;
All references are to the USCA5 electronic record on appeal in Hoggatt v. Allstate, No. 2060783, unless citation is to the Appendix.
1

7

with a “reputation for high moral values, combined with a soft, steady, Southern
manner” ROA.204; “Eric is friendly, quiet, dependable, and extremely easy to get
along with.” Dr. Orlin Johnston, ROA.205; “a fine family man and dentist”. Dr.
Keith Linn ROA.208
5. They have five children, three of whom are lawyers.
6. Mrs. Hoggatt, in behalf of her son, Ethan, and her husband, Dr. Hoggatt, sued
Allstate insurance, and now all three of them have been held in contempt of
court, fined and sanctioned, owing Allstate over $8000 !
7. In this unusual case of over two years in the District Court, with over 1500
pages and 105+ documents filed, the District Court allowed the Hoggatts no
discovery at all, even though the parties’ attorneys had held the required Rule
26(f) conference on April 8, 2019, and the Hoggatts repeatedly begged for
discovery to begin, ROA.1072, and filed an Emergency Motion for Hearing
August 16, 2019 ROA.1056-1073, which emergency motion the Court denied

seven months later March 5, 2020. ROA.1337.
8. On or about April 8, 2019 a Rule 26(f) conference was held at the helm of
Allstate’s counsel Charles Cowan, where parties agreed to length and number of
interrogatories, etc., and the Hoggatts believed that discovery was going to begin
in good faith. Allstate counsel Charles Cowan falsely stated by telephone wire
that he would send a copy of the proposed Case Management Order to the
Hoggatts for their approval, but never did.

8

9. “In this Court’s June 27, 2019 telephone conference, it indicated it would

temporarily abstain [emphasis added] from scheduling a Rule 16 conference in
this matter until the Court given this new development.” ROA.722, footnote 7.
10. Notwithstanding the requirement of L.U.Civ.R.16. PRETRIAL CONFERENCES
(a) Court Order, that
“The court will issue an Initial Order setting the deadline for the attorney
conference required by FED. R. CIV. P. 26(f) and a date for a case
management conference [CMC] with the magistrate judge. The court will
strive to set the case management conference within sixty days of the filing of
the first responsive pleading”,
the district court never scheduled a Rule 16 conference, and the Hoggatts never
were allowed the first smidgen of discovery.
11. No discovery was allowed after the Rule 26(f) conference was held, and no
hearing was ever held, on any motion. The Hoggatts never saw the District
Judge, nor appeared before the Magistrate, though the District Court severely
sanctioned them, over and over. Then, eventually, after Dismissal, the Hoggatts
at a contempt show cause hearing before the District Court Judge, and all three
Hoggatts were held in contempt of court, with severe professional and monetary
($8085) punishments.
12. All this, even though criminal charges against Allstate and its agents based on
the same acts have not been resolved, and Allstate’s bad faith insurance
practices are legend. At least nine state Attorney Generals have sued Allstate for
mass fraud against Allstate’s own clients.

9

13. On November 13, 2018, the Hoggatts filed criminal charges for mail and wire
fraud with the Mississippi Attorney General’s Consumer Fraud Division and the
local law enforcement, a month before any civil lawsuit was filed.
14. The Hoggatts amended those criminal charges during this civil action as
Allstate’s additional criminal conduct was committed, discovered, and
documented.
15. As Mrs. Hoggatt related to the District Judge at a show cause hearing November
18, 2020, both the local District Attorney and the Mississippi Insurance
Department have asked the Hoggatts to supply additional information on
Ethan’s faux Allstate policy. The Hoggatts had been afraid to reply, fearing
additional scathing reprimands and sanctions from the district court.
16. Those criminal charges are yet active and pending against Allstate and its
agents, now, post dismissal of the civil action.
17. When the Hoggatts amended their criminal affidavit to the Mississippi Attorney
General’s Consumer Protective Division to include documentation of criminal
acts committed in concert, after the filing of the civil complaint in state court,
including but not limited to claims of obstruction of justice by Allstate attorneys,
the District Court sanctioned the Hoggatts again. ROA.1087.
18. When the Court denied the Hoggatts’ duly filed Motion for Order to Amend the
Complaint, not only did the District Court deny the Hoggatts’ Motion, but
directed that the Hoggatts pay for Allstate’s attorney’s fees for responding to the
Hoggatts’ motion to amend, even when Allstate had not requested attorneys’

10

fees, stating, “The Court therefore awards Allstate its reasonable attorneys’ fees
incurred in responding to the motions to amend and moving for the instant
protective order and sanctions.” “Similarly, Allstate does not specifically ask for
fees in responding to the motions to amend. However, the Court finds that the
motions to amend and the motion for protective order and sanctions are
inextricably linked and arise from the same conduct. [Emphasis added]
ROA.1085
19. The District Court denied the Hoggatts’ September 3, 2019 Motion to Appeal the
Magistrate Judge’s Decision and the Hoggatts’ September 20, 2019 Motion for
Certificate of Appealability ten months after they were filed, on the same day
that the District Court dismissed the entire civil action, July 23, 2020. ROA.11.
20. The Court sanctioned the Hoggatts for seeking the interlocutory review in the
United States Court of Appeals for the Fifth Circuit, awarding Allstate
additional attorneys' fees, stating “Victoria Hoggatt quickly earned another
sanctions order when she filed two motions in this Court challenging the
Magistrate Judge’s sanctions order.” See, Pet. App.10a.
21. The District Court sanctioned the Hoggatts reporting criminal activity to
authorities, when the Hoggatts amended their criminal affidavit that was first
filed prior to any civil action, adding criminal conduct committed by Allstate
agents after the initial state court case was filed responding to the Hoggatts

motions to amend their complaint and attorney’s fees for Allstate’s moving for a
protective order and sanctions. ROA.1085

11

22. Then the district court was angered when the Hoggatts filed an appeal to the
District Court, for a final ruling on the Magistrates’ sanctions order, to modify or
set aside the sanctions order, or in the alternative, to certify the order for
interlocutory appeal pursuant to 28 U.S.C. § 1292(b), the District Court later
characterizing seeking interlocutory appellate review as “challenging” the Court.
The Court didn’t rule on those two motions concerning interlocutory appeal for
ten months, and then on the same day it dismissed the entire case.
23. Post Notice of Appeal, the District Court additionally ordered the Hoggatts to
pay to Allstate attorneys’ fees that Allstate incurred in filing a Motion for
Contempt, for preparing its Memorandum in Support of its Motion for Contempt,
and attorney’s fees for responding to Plaintiffs’ Rule 60 Motion for Relief from a
Judgment or Order, even though additional evidence, a tape recording of the
Allstate agent, Andy Dyson, made before any criminal charges were filed, and
made months before this civil action was first filed in state court, added FRCP
Rule 60 additional evidence of Allstate’s negligence and intent.
24. Post dismissal, the District Court found Mrs. Hoggatt and her clients in
contempt of court, ROA.1526, issued two monetary judgements in favor of

Allstate, so that Allstate could proceed with “garnishments” against the
Hoggatts, and barred Mrs. Hoggatt from practice in the District Court until
paying $8085, though the Court was fully apprised that like many
Mississippians, the Hoggatts are scrambling to pay their bills in this pandemic.

12

25. Seventy-one-year-old Dr. Hoggatt has not been able to work since March 13,
2020, due to being assessed “high risk staff” by the Mississippi State Board of
Dental examiners, meaning high risk of lethal consequences of covid infection.
26. At a November 18, 2020 Show Cause hearing, the Hoggatts supplied the District
Court an IRS notice that Dr. and Mrs. Hoggatt are subject of a tax lien of
$11,951.04, payable within two weeks, and have barely have adequate social
security to meet all their regular monthly bills timely.
27. Mrs. Hoggatt worked day and night to protect her family by prosecuting this
complex civil action and appeal, which has seen the recusal of Chief Judge
Sharion Aycock, and a total of 10 lawyers defending Allstate agents, Jacob C.
Ladnier and Jason B. Purvis of the law firm of Purvis & Co. PLLC; Roechelle
Morgan and Bertis Wayne Williams of Webb Sanders & Williams, P.L.L.C.;
Charles Cowan, Danielle Love Burks, and Cory Radicioni of Wise Carter Child &
Caraway, P.A.; Harry Case Embry, Jay Atkins, and Ben Woodhouse of McAngus,
Goudelock & Courie.
28. The catch-22 is that District Court has barred Mrs. Hoggatt “from filing any
future lawsuit in the district”, which severely limits her ability to work and pay
the sanctions that the District Court has imposed. See Pet. App. 9a.
Background of Insurance Claim
29. Petitioner Eric Hoggatt, DDS, “Dr. Hoggatt” is the father of Petitioner Ethan
Hoggatt, “Ethan”.

13

30. Attorney for the Petitioner s, Victoria Johnson Hoggatt, represents in this civil
action both her husband, Dr. Hoggatt, and her son, Ethan.
31. Both Dr. Hoggatt and his son Ethan, had separate Allstate Insurance Policies.
32. Dr. Hoggatt has paid Allstate Agent Andy Dyson for home and/or auto insurance
at least since April of 2012, and had never made a claim on any policy until
September 15, 2020.
33. In March of 2018, Ethan’s car was totaled through no fault of his own.
34. Progressive insurance settled the claim with Ethan and subsequently Ethan
called Defendant Andy Dyson, his Allstate agent, in Tupelo, Mississippi, to
cancel his Allstate auto insurance because he no longer had a vehicle.
35. Defendant Suzanne Hand, is an employee of Defendant Andy Dyson, an Allstate
agent, in Tupelo, Mississippi.
36. In April, 2018 Defendant Suzanne Hand ‘sold’ Petitioner Eric Hoggatt’s son,
Ethan Hoggatt, an Allstate "comprehensive" policy when he called to cancel his
Allstate car insurance, when he no longer owned a car.
37. By telephone wire, Defendant Suzanne Hand told Petitioner Eric Hoggatt’s son,
Petitioner Ethan Hoggatt, coercive and false statements, when she falsely
stated that if he (Ethan) didn’t buy Allstate insurance, he could not buy
insurance “for six months”, and sold him a “comprehensive” policy.
38. Ethan thought his purchase of insurance would cover him if he was driving
someone else's car, as he was being billed monthly for Allstate Insurance, and

14

such insurance quite obviously could not “follow the car”, as all parties knew
that Ethan had no car.
39. September 15, 2018, Petitioner Ethan Hoggatt wrecked Petitioner Eric Hoggatt’s
Toyota, and Defendant Allstate Insurance claims agents said that Ethan's policy
covered nothing.
40. Mrs. Hoggatt’s insurance was an entirely different policy, #985382766, owned by
Mrs. Hoggatt and her husband, and all parties knew that it rightfully paid to
repair the vehicle that her son Ethan ran into.
41. On or about September 23, 2018, Allstate Claims Agent Maria Alvarez stated on
recorded audiotape, concerning Respondent Hand’s assertion that Ethan should
continue Allstate Insurance coverage or he couldn’t buy Allstate Insurance for
six months, “That was wrong! They shouldn’t have said that!”
42. Respondent Hand thereby violated 18 U.S. Code § 1343 – Fraud by wire, when
she committed wire fraud for her false assertions made by wire.
43. She was thereby negligent per se, by reason of criminal wire fraud, irrespective
of whether that wire fraud was part of a RICO enterprise.
44. Respondent Allstate and its agent, Respondent Andy Dyson, always knew that
since Dr. Hoggatt’s Allstate Insurance policy #985382766, owned by Mrs.
Hoggatt and her husband, did timely pay to fix the pickup Ethan ran into, that
the only policy that the Hoggatts and Allstate ever had issue with, was Ethan's,
Dr. Hoggatt’s son's, entirely separate policy. See,
https://youtu.be/VldZAPqWXfE, September 25th, 2018 audio of Andy Dyson.

15

45. In November of 2018, the Hoggatts filed a criminal affidavit with the Consumer
Fraud Division of the Mississippi Attorney General's office, for wire fraud
concerning only Ethan’s Allstate dummy policy, since Allstate drafted Ethan’s
bank account for premiums for 10 months, knowing he owned no car.
46. Ethan Hoggatt’s Allstate policy is void on its face, by its own language, to-wit:
“This policy shall be deemed void from its inception if it was obtained or renewed
through material misrepresentation, fraud or concealment of material fact.”
Page 6 of June 16, 2018 “contract”, ROA.279.
47. Ms. Hand’s writing a policy, and falsely entering in the “insurance contract”,
that Ethan Hoggatt was the owner of a Toyota Yaris vehicle, with full knowledge
he owned no such vehicle, is certainly a “policy [that should] be “deemed void
from its inception” since “it was obtained or renewed through material
misrepresentation, fraud, or concealment of material fact(s), made by Ms. Hand.
48. When Respondent Hand utilized the US mails to transmit Ethan’s “policy” that
was fraudulent on its face, with false VIN number, in furtherance of a scheme to
defraud, she thereby violated 18 U.S.C. § 1341 – Frauds and swindles, Mail
fraud.
49. Respondents Allstate, Dyson, and Hand were thereby negligent per se;
irrespective of whether their wire fraud was part of a RICO enterprise, they
committed documented mail fraud by false writings sent by US Mails.
50. The standards for mail fraud are different than common law fraud, which both
the circuit court of appeals and the district court relied on.

16

51. Allstate and its agent Andy Dyson benefited personally by Ms. Hand’s
fraudulent assertions when he obtained a portion of the premiums, monies for
each of the 10 months paid by Ethan Hoggatt when he owned no car, ostensibly
per the insurance “contract”, void-at-its-inception through material
misrepresentation, fraud, and concealment of material facts.
52. Ms. Hand fraudulently made both the written material misrepresentation in the
“contract” that Ethan owned the named vehicle “covered”, and the oral material
misrepresentation made by telephone wire that Allstate would not write Ethan
Hoggatt a policy to cover a vehicle for six months, if he did not pay monies to
Allstate for ‘comprehensive’ coverage.
53. Ethan Hoggatt never signed any such contract.
54. A month after filing criminal fraud charges with the Consumer Protection
Division of the Mississippi Attorney General’s office, and local law
enforcement, Mrs. Hoggatt, an attorney, filed this lawsuit, with Dr. Hoggatt and
Ethan as Plaintiffs, only concerning Ethan's void dummy policy.
55. Attorney Case Embry, Respondent Andy Dyson's attorney, repeatedly utilized
the wires (email) to pressure attorney Victoria Hoggatt, that she get another
insurance agent, which she told him would be difficult in the middle of a claim
and lawsuit.
56. Attorney Hoggatt also repeatedly notified attorney Case Embry, who represents
Respondent Allstate Agent Dyson, that she could not access either her own
Allstate insurance web account, nor Ethan’s, though both were paying Allstate
insurance premiums.

17

57. Respondents Allstate, not in the normal course of business, blocked Mrs.
Hoggatt’s access to her own insurance information on the Allstate website.
58. After Mrs. Hoggatt had filed a criminal affidavit against Allstate in November of
2018, and in retaliation for not been able to intimidate Mrs. Hoggatt to obtain
new insurance agent for her own home and car insurance and for filing a
criminal affidavit against Allstate, Allstate attorneys took matters into their
own hands, to begin their own vendetta against her.
59. Upon direction of Allstate attorneys, and not in the normal course of business,
respondent Allstate then intentionally canceled Dr. and Mrs. Hoggatt’s own car
insurance, which was related to their home insurance, and sent to Dr. and Mrs.
Hoggatt the FTC required "Notice of Non-renewal", which was fraudulent on its
face. See, https://youtu.be/r3Xf2zrE6ys, an audiotape of LexisNexis, which
corroborated earlier letters from LexisNexis stating that no reports had been
made.
60. After the Hoggatt filed its initial criminal affidavit with law enforcement,
Allstate utilized the US mails to transmit the FTC required "Notice of Nonrenewal", which was fraudulent on its face, in furtherance of a scheme to
defraud, they thereby violated 18 U.S.C. § 1341 – Frauds and swindles, Mail
fraud, irrespective of whether that mail fraud was part of a RICO enterprise.
61. Both the LexisNexis audio and the letters from LexisNexis that related that
LexisNexis never prepared any reports upon which cancellation of insurance
were based, were included in exhibits filed with the district court,

18

62. All of the alleged reasons Allstate gave for cancellation of Dr. and Mrs. Hoggatt’s
own insurance concerned Ethan Hoggatt, and were allegedly “based on
LexisNexis reports”, though LexisNexis never issued any such reports.
63. Interestingly, Allstate did not cancel Ethan's own dummy policy, but kept on
drafting his Renasant bank account, which caused his checking account to
overdraft, for over 9 months after he had no car, since mid-March of 2018.
64. Respondent Allstate, Hand, and Dyson thus violated 1343 18 U.S.C. § 1344 Bank
fraud each time they drafted Ethan’s bank account, as they knowingly executed,
or attempted to execute, a scheme or artifice by means of false or fraudulent
representations to obtain any of the moneys, funds, credits, assets, securities, or
other property under the custody or control of a financial institution, Renasant
Bank.
65. Respondents were thereby negligent per se, by reason of criminal bank fraud,
irrespective of whether that bank fraud was part of a RICO enterprise.
66. The Mississippi Insurance Department states, “Policyholders shall have the
right to cancel their policy and receive a refund of any unearned premium.”
67. Contrary to the audio promise of Respondent Dyson, Allstate did not refund any
moneys to Ethan Hoggatt. See https://youtu.be/VldZAPqWXfE, September 25,
2018 audio of Allstate Agent Andy Dyson.
68. Allstate’s Notice of Non-renewal of Dr. and Mrs. Hoggatt’s own insurance, falsely
alleged the name of the company who manufactured the reports upon which
Allstate’s cancellation of Dr. and Mrs. Hoggatt’s own insurance was based,

19

LexisNexis, and stated that Dr. and Mrs. Hoggatt’s had a right to those reports
by FTC law.
69. Respondents Allstate, Hand, and Dyson in criminal concert with Allstate
attorneys Radicioni and Cowan who directed the retaliatory cancellation of
insurance, thus violated18 U.S. Code § 1513 - Retaliating against a witness,
victim.
70. Respondents Allstate, Hand, and Dyson knowingly, with the intent to retaliate,
took premediated action harmful to Mrs. Hoggatt, for providing by criminal
affidavit to a law enforcement officer truthful information relating to the
commission or possible commission of any Federal offense, and upon conviction,
could be fined under this title or imprisoned not more than 10 years, or both.
71. Respondent Allstate then mailed the fraudulent Notice of Non-renewal at the
direction of Allstate attorneys to ‘cancel’ Mrs. Hoggatt’s own insurance; they
thereby acted in concert to violate 18 U.S.C. § 1341 – Frauds and swindles, Mail
fraud.
72. Respondents were thereby negligent per se, by reason of criminal mail fraud,
irrespective of whether that fraud was part of a RICO enterprise.
73. Respondents’ liability does not depend on common law fraud, civil RICO,
common law contract, or common law negligence.
74. Additionally, Allstate and its attorneys, Cowan and Radicioni, acted in concert
for the purpose of depriving, either directly or indirectly, Dr. and Mrs. Hoggatt of

20

the equal protection of the laws, or of equal privileges and immunities under the
laws provided by the statutory requirement of the Fair Credit Reporting Act.
75. By federal law, if Allstate was to cancel or non-renew insurance, they must
provide the name and contact information of a CRA that produced the reports,
upon which the cancellation of Dr. and Mrs. Hoggatt’s own insurance was
alleged to have been based, so that the consumer can obtain the reports and
determine the accuracy of the information.
76. Allstate and its attorneys are “two or more persons” who conspired, … for the
purpose of preventing or hindering the constituted authorities of any State or
Territory from giving or securing to all persons within such State or Territory
the equal protection of the laws [the federal right to have the reports upon which
the cancellation of Dr. and Mrs. Hoggatt’s own insurance was alleged to have
been based] … and the party so injured or deprived may have an action for the

recovery of damages occasioned by such injury or deprivation, against any one or
more of the conspirators.
77. Mrs. Hoggatt first requested those time sensitive reports statutorily required by
the Fair Credit Reporting Act from Respondent Allstate's lawyer Charles Cowan,
who pretended that the reports were only to be had though civil discovery,
though he is an experienced insurance defense counsel who knows full well that
the reports are not to be gotten through some lawyer. See Pet. App.66-67.
78. Mrs. Hoggatt next requested those reports concerning non-renewal of her own
insurance, from LexisNexis, and LexisNexis says they never produced any

21

reports on either Respondent Ethan Hoggatt, Dr. Eric Hoggatt, nor Mrs.
Hoggatt, for Allstate or anyone else. Pet.App.64-65
79. Respondent Allstate’s Notice of Non-renewal was fraudulent on its face.
80. Petitioners duly recorded those oral statements made by LexisNexis about
having made no report on Ethan Hoggatt, and entered them in the record, and
cited as well the July 16, 2019 letters from LexisNexis concerning Dr. and Mrs.
Hoggatt. See Appendix J.
81. Mrs. Hoggatt first requested those reports from Allstate's lawyers, and Allstate
defense counsel Charles Cowan responded that those reports would have to be
gotten through formal litigation discovery.
82. The district court erred in finding that Mrs. Hoggatt was gravely wrong to
assert to attorney Cowan that Allstate must give the reports upon which
cancellation of her own insurance was based, as it was Allstate attorney Charles
Cowan who repeatedly asserted that those reports would have to be gotten
through formal litigation discovery. See Appendix K, with no mention of
requesting the reports from LexisNexis.
83. But more important, experienced Allstate insurance defense attorney Cowan
was intentionally and willfully wrong in vehemently asserting by wire, emails,
that Mrs. Hoggatt couldn't get the required extremely time sensitive reports,
about her own insurance policy, without formal litigation discovery.
84. Respondent Allstate and Allstate attorney Cowan knew there were no
LexisNexis reports to be had.

22

85. Respondent Allstate utilized attorney Cowan to try to keep the Hoggatts from
finding out that the Notice of Non-renewal was fraudulent on its face, by
attorney Cowan’s threats that it would be unethical for Mrs. Hoggatt to respond
to the FTC notice of non-renewal. See, APPENDIX J, Letters from LexisNexis,
showing that LexisNexis never prepared reports upon which the cancellation of
Dr. and Mrs. Hoggatt’s own insurance was based, as Allstate fraudulently
alleged by the US mails.
86. Defendant Allstate’s counsel Charles Cowan knew that Dr. and Mrs. Hoggatt’s
policy was never the subject of the lawsuit.
87. Allstate attorney Cowan’s intent in orchestrating havoc to Dr. and Mrs. Hoggatt
was to act in concert with his employer, Allstate, to interfere with civil rights for
the purpose of depriving, either directly or indirectly, Dr. and Mrs. Hoggatt of
the equal protection of the laws, or of equal privileges and immunities under the
Fair Credit Reporting Act.
88. After Mrs. Hoggatt swore out a criminal affidavit against Allstate in November
of 2018, and delivered it to both the Mississippi Commissioner of Insurance and
the Mississippi Attorney General, Allstate was on notice that she was a witness
to criminal acts of Allstate, Dyson, and Hand.
89. A reasonable juror may conclude that Allstate attorney Cowan’s intent was to
act in concert with his employer, Allstate, to further cause expense, misery, and
loss to, by loss of Dr. and Mrs. Hoggatt’s own insurance, and to hinder and

23

intimidate her, for swearing out criminal charges against Allstate in November
of 2018.
90. 42 U.S.C. § 1985 OBSTRUCTING JUSTICE; INTIMIDATING PARTY, WITNESS, OR JUROR
in relevant part, states,
If two or more persons in any State or Territory conspire to deter, by force,
intimidation, or threat, any party or witness in any court of the United States
from attending such court, or from testifying to any matter pending therein,
freely, fully, and truthfully, or to injure such party or witness in his person or
property on account of his having so attended or testified, …or if two or more
persons conspire for the purpose of impeding, hindering, obstructing, or
defeating, in any manner, the due course of justice in any State or Territory,
with intent to deny to any citizen the equal protection of the laws, or to injure
him or his property for lawfully enforcing, or attempting to enforce, the right
of any person, or class of persons, to the equal protection of the laws;…
If two or more persons in any State or Territory conspire, … in any case of
conspiracy set forth in this section, if one or more persons engaged therein do,
or cause to be done, any act in furtherance of the object of such conspiracy,
whereby another is injured in his person or property, or deprived of having
and exercising any right or privilege of a citizen of the United States, the
party so injured or deprived may have an action for the recovery of damages
occasioned by such injury or deprivation, against any one or more of the
conspirators.
91. The district court magistrate erred, when it wrongly deemed the FTC mandated
reports a "discovery dispute", and that the insured’s obtaining those alleged
reports, was a question that could be decided by a federal magistrate in a civil
action, especially because Dr. and Mrs. Hoggatt’s own insurance policy being
non-renewed was not even the policy subject of the lawsuit.
92. The consumer is guaranteed a right to those reports by law, under the purview
of the Federal Trade Commission, upon cancellation of insurance.

24

93. Allstate’s non-compliance with that FTC provision is, by law, prosecutable by
state attorney generals, pursuant to 15 U.S.C. § 1681s § 621. Administrative
enforcement, which states in part,
94. (c) STATE ACTION FOR VIOLATIONS
(1) AUTHORITY OF STATES In addition to such other remedies as are provided
under State law, if the chief law enforcement officer of a State, or an official
or agency designated by a State, has reason to believe that any person has
violated or is violating this subchapter, the State—
(A) may bring an action to enjoin such violation in any appropriate
United States district court or in any other court of competent jurisdiction;
(B)subject to paragraph (5), may bring an action on behalf of the residents of
the State to recover—
(i) damages for which the person is liable to such residents under
sections 1681n and 1681o of this title as a result of the violation;
(ii)in the case of a violation described in any of paragraphs (1) through (3)
of section 1681s–2(c) of this title, damages for which the person would, but
for section 1681s–2(c) of this title, be liable to such residents as a result of the
violation; or
(iii)damages of not more than $1,000 for each willful or negligent violation;
and
(C)in the case of any successful action under subparagraph (A) or (B), shall be
awarded the costs of the action and reasonable attorney fees as determined
by the court.
95. Thus, the Hoggatts rightfully filed a subsequent criminal affidavit with the
Mississippi Attorney General's office.
96. The Hoggatts amended criminal affidavit stated in part,
On or about April 8, 2019, at the Case Management Order conference of
all attorneys in Dr. Hoggatt’s civil action against Allstate, Allstate Agent
and attorney Charles Cowan of law firm Defendant Wise Carter Child &
Caraway, P.A., stated in the hearing of Case Embry, the attorney for Dr.
Hoggatt’s then current insurance agent, Andy Dyson, that Dr. Hoggatt
couldn’t have that reporting information required by the Fair Credit
Reporting Act, but repeatedly declined giving ‘authority’ for such false and
obstructive statements.

25

Attorney Case Embry, Cory Radicioni, and Charles Cowan all are smart
and experienced insurance defense counsel who are absolutely sure that the
Supremacy Clause of the federal Constitution means that federal law
supersedes state law, and that the consumer is due the documentation on
which an insurance cancellation was based, per the Fair Credit Reporting
Act, notwithstanding that the poor consumer has had to sue his own
insurance agent for denial of claims.
Allstate attorney Cowan’s intentional and egregious obstruction of his
client, Allstate’s, compliance with the legal requirements of the Fair Credit
Reporting Act provisions promulgated to protect consumers, crosses the line
between zealous advocacy and Intentional Obstruction of Justice and
interference with contract.
On or about May 22, 2019, Allstate’ attorney Cowan, reiterated his
‘stand’, that Dr. Hoggatt could not have those Allstate reports, which in fact
attorney Cowan knows are legally guaranteed by the Fair Credit Reporting
Act to all consumers upon cancellation of insurance. Pet. App.66-67
97. Allstate counsel Charles Cowan and Cory Radicioni did not say, “Oh, you have to
request those reports from LexisNexis”, because they knew that there were no
LexisNexis reports, as Respondent Allstate had falsely alleged by US mails.
98. The Mississippi Insurance Department requires that a copy of the Mississippi

Policyholder’s Bill of Rights be sent to all policy holders when their insurance is
non-renewed, along with the Fair Credit Reporting Act notice.
99. Respondent Allstate sent to Dr. and Mississippi the Mississippi Policyholder’s

Bill of Rights which states, “policyholders shall have the right to receive in
writing from their insurance company the reason for any cancellation or
nonrenewal of coverage. The written statement from the insurance company
must provide an adequate explanation for the cancellation or nonrenewal of
coverage.”
100.

Victoria Hoggatt did contact her own insurer, at the Allstate’s department

that invited her to do so in the Notice of Non-Renewal.

26

101.

Attorney for Allstate, Charles Cowan, repeatedly and wrongly asserted by

wire that attorney Victoria Hoggatt’s contact with her own insurer, after Allstate
sent a fraudulent on its face notice of non-renewal, violated ethics, though
attorney Cowan always knew that only Ethan’s insurance policy at issue, and
was in no way connected with his parents’ insurance policy.
102.

MISSISSIPPI RULES OF PROFESSIONAL CONDUCT, Rule 4.2,

Communications with Person Represented by Counsel, states in pertinent part,
In representing a client, a lawyer shall not communicate
about the subject of the representation [Emphasis added]
with a party the lawyer knows to be represented by
another lawyer in the matter, [Emphasis added] unless
the lawyer has the consent of the other lawyer or is
authorized by law to do so.
Comment

This Rule does not prohibit communication with a party,
or an employee or agent of a party, concerning matters
outside the representation. [Emphasis added] For

example, the existence of a controversy between a
government agency and a private party, or between two
organizations, does not prohibit a lawyer for either from
communicating with non-lawyer representatives of the
other regarding a separate matter. Also, parties to a
matter may communicate directly with each other and a
lawyer having independent justification for
communicating with the other party is permitted to do so.
Communications authorized by law include, for example,
the right of a party to a controversy with a government
agency to speak with government officials about the
matter.”

103.

Allstate’s “Jennifer” stated May 24, 2019, on the conversation recorded by

Allstate, that Allstate Casualty and Insurance Company didn’t have those
documents that Allstate relied upon to cancel Dr. Hoggatt’s car insurance, because

27

“We threw them out”, which destruction of evidence gives rise to both civil and
criminal penalties for 18 U.S.C. § 1519, SOX (Sarbanes-Oxley Act) violations, for
destruction of materials to impair their use in investigative or judicial
proceedings.
104.

Allstate’s Jennifer further stated that she would consult with Wise Carter

Child & Caraway attorney Charles Cowan. ROA.1198
105.

Jennifer said she was going to talk to attorney Cowan, who directed Jennifer

not to send the Allstate assessment that the letter states is “attached”. See,
APPENDIX L, Pet.App.68.
106.

In contrast, Allstate’s fraudulent Notice of Non-Renewal stated different

reasons for non-renewal, i.e., that the cancellation was due to driving violations
Ethan had had, in his own car in 2016, and on the one September 2018 accident.
107.

Allstate attorneys filed a Motion for Sanctions, and the magistrate judge,

upon request of Allstate counsel, sanctioned the Petitioner s and their counsel
thousands of dollars, saying that the Hoggatt’s filing the second criminal charges
was "disruptive" of the lawsuit, though the second affidavit was a continuation of
the criminal affidavit filed prior to any litigation.
108.

In truth, it was Allstate’s aim to disrupt the Hoggatts’ lives as thoroughly as

possible.
109.

Petitioners’ Second Motion to Amend the Complaint to add subsequent acts of

fraud by Allstate and its attorneys was denied.

28

110.

Petitioners petitioned the district court, to either review and overturn

the Magistrate's Order of Sanctions, or in the alternative, for a declaration of
appealability of the Magistrate's Order of Sanctions and of the Order denying
Petitioner s’ Second Motion to Amend the Complaint, since adding other parties
couldn't well be done after the case was tried.
111.

The Hoggatts’ were also ordered to pay Allstate lawyers for their response to

Petitioners’ pleadings that sought relief from the Magistrate’s Order.
112.

The trauma and harassment intentionally caused by Respondent Allstate, of

cancelling Mrs. Hoggatt’s own insurance during ongoing contentious litigation,
(with by then 84 different documents, plus exhibits, since the initial filing in
December of 2018), caused Mrs. Hoggatt to break out in dreadful shingles, with
which she suffered for months. See https://youtu.be/iWSJrvgxOG0.
113.

The district court, prior to its order of sanctions, had exhibits showing that

Allstate’s notice of non-renewal to Dr. and Mrs. Hoggatt was fraudulent on its
face. See, Appendix J, letters from LexisNexis, Pet. App.64a-65a.
114.

It is in the public interest that Allstate not sell such policies that the Allstate

contract itself says is void at inception, that cause unnecessary, and egregious
infliction of mental distress.
115.

The Allstate employee, respondent Hand, who made the fraudulent claim

that if Ethan didn't buy Allstate Insurance after he had no car, he couldn't
obtain Allstate insurance for six months, initially hired two lawyers from the
Mississippi gulf coast who do whistle-blower litigation.

29

116.

Only discovery will allow Ms. Hand to testify as to who instructed her to sell

the dummy policies, and how many she has written.
117.

Those dummy policies are easily discovered, as they are all the

Allstate policies that purport to cover autos comprehensively, but contain no
state mandated liability coverage.
118.

The Allstate agency owner Andy Dyson did not deny that Ms. Hand said the

fraudulent “no insurance for six months” statement, but he said it was for a

different reason that they sold such insurance, to persons who had no car.
119.

The Allstate agent then hired two different two lawyers in Jackson,

Mississippi, to defend him.
REASONS FOR GRANTING THE WRIT
120.

The Federal Courts of Appeal are unanimous that petitioning law

enforcement for redress is protected by the 1st Amendment
The final clause of the First Amendment, the right to petition the
government for a redress of grievances, is fundamental to “the very idea of a
government republican in form.” United States v. Cruikshank, 92 U.S. 542, 552
(1875). See also United Mine Workers of Am. v. Illinois State Bar Ass’n, 389 U.S.
217, 222 (1967).
The right to petition includes petitioning “all departments of the
Government.” California Motor Transp. Co. v. Trucking Unlimited, 404 U.S.
508, 510 (1972). Courts nationwide have found that reporting criminal
conduct, executing a criminal complaint with law enforcement, and assisting
with a law enforcement investigation each constitute an exercise of the First
Amendment right to petition. See, e.g., Gable v. Lewis, 201 F.3d 769, 771 (6th
Cir. 2000) (noting that “[s]ubmission of complaints and criticisms to
nonlegislative and nonjudicial public agencies like a police department
constitutes petitioning activity protected by the petition clause”); Estate of
Morris ex. rel. Morris v. Dapolito, 297 F. Supp. 2d 680, 692 (S.D.N.Y. 2004)
(concluding that swearing out a criminal complaint against a high school
teacher for assault and seeking his arrest were protected First Amendment

30

petitioning activities); Lott v. Andrews Ctr., 259 F. Supp. 2d 564, 568 (E.D.
Tex. 2003) (noting that “[t]here is no doubt that filing a legitimate criminal
complaint with law enforcement officials constitutes an exercise of the First
Amendment right”); Arim v. General Motors Corporation, 520 N.W. 2d 695
(Mich. Ct. App. 1994) (granting summary judgment to individuals who were
sued for their participation in a criminal sting operation run based on the
First Amendment); United States v. Hylton, 558 F. Supp. 872, 874 (S.D. Tex.
1982) (noting that filing a legitimate criminal complaint with law
enforcement officials constitutes an exercise of the First Amendment right);
Curry v. State, 811 So.2d 736, 743 (Fla. Dist. Ct. App. 2002) (finding that
complaints, even though numerous, made to law enforcement agencies are
protected First Amendment activity regardless of “unsavory motivation” of
petitioner). Reporting Crime: A Victim’s First Amendment Right, Meg
Garvin, NCVLI Lead Staff Attorney, National Crime Victim Law Institute,
NCVLI News fall/winter 2004
121.

This case is of national importance to have the Supreme Court decide because

the decisions in this case conflict with the decisions of other appellate courts that
have considered a citizen’s First Amendment right to petition for redress of
grievances.
122.

No Respondent offered another case wherein civil counsel was fined and

sanctioned for amending a criminal affidavit to include attorneys.
123.

Allstate would not have been able to send the false notice of non-renewal and

then hide its falsity, without direction from attorney Cowan firm and his law
firm. An attorney’s license is not an invitation to engage in mail fraud, witness
retaliation or intimidation, obstructive behavior, and a lawyer no less than
anyone else is bound by generally applicable legislative enactments. Nothing
should exempt professionals, as a class, from the law’s proscriptions, and the fact
that a defendant has the good fortune to possess the title “attorney at law” is,
standing alone, is completely irrelevant. Behavior prohibited by criminal

31

statutes, regardless of the person to whom it may be attributed, is wrong. Courts
should not shrink from finding an attorney liable when he crosses the line
between traditional rendition of legal services and active participation in
tortuous, retaliatory, and/or criminal activity.
124.

Allstate insurance never had a contract of insurance with Ethan Hoggatt.

125.

Ethan Hoggatt’s dummy “contract for insurance”, upon which no claim could

ever be made, was void on its face, due to Ms. Hand’s own written declaration on
the policy that Ethan Hoggatt owed a vehicle, that she knew he did not own.
126.

Ms. Hand wrote the fake policy with no state mandated liability coverage,

and with a VIN number of a vehicle owned by Progressive Insurance or its
assigns.
127.

After Ethan notified Allstate he was cancelling his policy because he was car-

less, as a matter of law, a valid insurance policy never existed.
128.

In the entire two years of pleadings, Allstate never addressed at all the fact

that Ethan’s Allstate policy was always void on its face, by the policy’s own
specific and unambiguous language, to-wit: “This policy shall be deemed void

from its inception if it was obtained or renewed through material
misrepresentation, fraud or concealment of material fact.” ROA.278
129.

If ever there was material misrepresentation, fraud, or concealment of

material fact in an ‘insurance policy’, surely Ms. Hand’s written fraud that
stated that Ethan was the owner of a car that Mrs. Hand knew he didn’t own,
would qualify. ROA.260.

32

130.

Ms. Hand’s inserting in an ‘insurance policy’ a V.I.N. number for a vehicle

then owned by Progressive Insurance or its assigns is certainly material.
ROA.260
131.

Since Allstate insurance never had a contract of insurance with Ethan

Hoggatt, the district court erred in dismissal for failure to state a claim, basing
the court’s opinion in common law fraud, civil RICO, and common law contract.
The Hoggatts’ negligence per se claims, due to Respondents’ criminal acts are
valid, strong, and well documented. The Amended complaint’s claims sustain a
viable cause of action.
132.

Petitioners Amended complaint validly asserted Negligence per Se for

Allstate’s criminal acts; Petitioners’ Motion to Amend should have been granted;
Allstate’s tortuous acts committed after this lawsuit was instigated should be
fair game for civil action.
133.

Allstate’s criminal acts are currently under investigation by the Mississippi

Attorney General’s office.
134.

The District Courts’ dismissal after denying the Hoggatt’s Motion to Amend

the Complaint is an error of such magnitude as to require reversal.
135.

Allstate’s pattern and intent to defraud the consumer continued after

instigation of both criminal charges and civil action.
Where the question is one of fraudulent intent, the rule is the same in civil
and criminal cases. See Wood v. United States, 16 Pet. 342, 10 L. Ed. 987,
where the court so held and stated that it has always been deemed allowable
to introduce evidence of other acts and doings of the party of a kindred
character in order to illustrate or establish his intent or motive in the

33

particular act directly in judgment. "Indeed, in no other way would it be
practicable, in many cases, to establish such intent or motive, for the single
act, taken by itself, may not be decisive either way; but when taken in
connection with others of the like character and nature, the intent and
motive may be demonstrated almost with a conclusive certainty." 16 Pet. 342,
358, 10 L. Ed. 987. In Butler v. Watkins, 13 Wall. 456, 464, 20 L. Ed. 629, the
court said: "In actions for fraud, large latitude is always given to the
admission of evidence." In Mutual Life Ins. Co. v. Armstrong, 117 U.S. 591, 6
S. Ct. 877, 29 L. Ed. 997, the court held that a repetition of acts of the same
character naturally indicated the same purpose in all of them, and said that
evidence of other frauds tended to establish the charge in the case on trial of
a premeditated purpose to cheat and defraud. See also Spurr v. United
States, 6 Cir., 87 F. 701.
136.

Allstate attorneys and agents continued a premeditated purpose to cheat and

defraud.
137.

The Fifth Circuit Court of Appeals was to consider de novo the issues upon

which the district court based its opinion to dismiss the Hoggatts’ civil action
with prejudice. The Second Amended complaint added many viable and
documented claims, including intentional infliction of mental distress and
numerous negligence per se claims, which accrued after the filing of the original
complaint.
When considering a motion to dismiss, if the motion appears meritorious and
a more carefully drafted complaint might cure any deficiencies, the district
court must “give the plaintiff an opportunity to amend his complaint, rather
than dismiss it ...” [Emphasis added] Fuller v. Rich, 925 F. Supp. 459, 461
(N.D. Tex. 1995) Fuller v. Rich, 925 F. Supp. 459, 461 (N.D. Tex. 1995).
The district court must first permit the plaintiff to amend his or her
complaint unless the court has a substantial reason for denying the request
to amend. Rolf v. City of San Antonio, 77 F.3d 823, 828 (5th Cir. 1996) (“A
decision to grant leave is within the discretion of the court, although if the
court lacks a substantial reason to deny leave, its discretion is not broad
enough to permit denial.”).
Under the district court’s standard of determination, even if factual
allegations are untrue, the court must view the allegations in the light most

34

favorable to the nonmovant. Jebaco Inc. v. Harrah’s Operating Co., 587 F.3d
314, 318 (5th Cir. 2009) (“Viewing the facts as pled in the light most
favorable to the nonmovant, a motion to dismiss or for a judgment on the
pleadings should not be granted if a complaint provides ‘enough facts to state
a claim to relief that is plausible on its face.’”)
In Bell Atlantic Corp. v. Twombly, 127 S. Ct. 1955, 1965 (2007), the
U.S. Supreme Court imposed a mere “plausibility” standard for complaints,
but did not impose a “probability” requirement. Instead, the Court required
enough facts to raise a reasonable expectation that discovery [Emphasis
added] will produce enough evidence to indicate that a claim exists. Lormand
v. US Unwired, 565 F.3d 228, 257 (5th Cir. 2009).
138.

The District Court, prior to dismissal, had both audio recordings exhibits and

document exhibits from LexisNexis that proved that the Allstate Notice of Nonrenewal of Dr. and Mrs. Hoggatt’s own auto insurance was fraudulent on its
face. Additionally, numerous exhibits of emails from Allstate counsel Charles
Cowan showed that he repeatedly and consistently, but wrongly, stated that
Allstate’s non-renewal of Dr. and Mrs. Hoggatt’s own auto insurance was a
“discovery matter”.
139.

Allstate counsel Charles Cowan showed that he repeatedly and consistently,

but wrongly, and that contacting Allstate as directed in its fraudulent Notice of
Non-renewal would be “contacting my client”, though Allstate was the party who
initiated the contact, and was still drafting Dr. and Mrs. Hoggatt’s own bank
account for auto insurance.

35

140.

Mississippi recognizes the doctrine of Negligence Per Se. The Second

Amended complaint added many viable and documented claims, including
intentional infliction of mental distress and negligence per se claims, which
accrued after the filing of the original complaint.
"Mississippi recognizes the doctrine of negligence per se, which essentially
provides that a breach of a statute or ordinance may render the offender
liable in tort without proof of lack of due care." Dallas v. Premier Vehicle
Transp., Inc., No. 1:16-CV-358-LG-RHW, 2017 WL 3389793, at *2 (S.D. Miss.
Aug. 7, 2017)
141.

The decisions below have the effect of chilling a victim’s First Amendment

rights.
142.

On November 13, 2018, the Hoggatts filed criminal charges for mail and wire

fraud with the Mississippi Attorney General’s Consumer Fraud Division and the
local law enforcement, a month before any civil lawsuit was filed. The Hoggatts
amended those criminal charges during this civil action as additional criminal
conduct was committed, discovered, and documented.
143.

As Mrs. Hoggatt related to the District Judge at a show cause hearing

November 18, 2020, both the local District Attorney and the Mississippi
Insurance Department have asked the Hoggatts to supply additional
information on Ethan’s faux Allstate policy. The Hoggatts had been afraid to
reply, fearing additional scathing reprimands and sanctions.

36

144.

Criminal charges against Allstate and its agents based on the same acts have

not been resolved. Those charges are yet active and pending against Allstate and
its agents, now, post dismissal of the civil action.
145.

The district court’s civil contempt sanction constitutes an unwarranted,

damaging, and widely published public reprimand.
Mrs. Hoggatt has no “history as a vexatious litigant”. Neither Ethan nor Eric
Hoggatt are contemptible. While a district court may, as a civil contempt sanction,
bar a vexatious litigant from filing any future lawsuit in the district. Barnes v.

United States, 800 F. App’x 284, at *286 (5th Cir. 2020), the decision to impose such
a sanction must be supported by the contemnor’s “history as a vexatious litigant.”

Barnes, 800 F. App’x at *286. Petitioner Ethan Hoggatt is as mild mannered and
agreeable as can be. Petitioner Dr. Eric Hoggatt has a fine reputation with fellow
dentists and the community. He is neither contentious nor vexatious as can be seen
by exhibits attached to filings. See, https://www.currentconstitutionalapp.com/Dr-Hoggatt--DDS-Testimonials.html.
146.

Anyone searching attorney Victoria Hoggatt can read the derogatory,

defamatory, and damaging language, in those orders, and will believe the
language.
147.

This Petition for a Writ of Certiorari should be granted, to correct the

published Contempt Order asserting that “Awarding attorneys' fees to the
insurer was proper because the insured and his family attempted to circumvent
the discovery process by seeking documents outside of formal discovery.”

37

148.

The Hoggatts never sought to “circumvent discovery”. There were no

documents, on which Allstate falsely alleged by US mail, that cancellation of Mrs.
Hoggatt’s own insurance was based, to discover. The Hoggatt never had to ask
permission of Allstate, nor the district court to exercise the rights afforded them
by the Fair Credit Reporting Act, and indeed, rights promoted by Mrs. Hoggatt’s
own insurer, Allstate, in its fraudulent notice of non-renewal.
149.

Allstate lawyers should not be allowed to act in concert with Allstate employees

to cancel an attorney’s own insurance, which was not at issue in the civil action,
and then use the US mails and the wires to send an intentionally fraudulent
Notice of Non-renewal, and then attempt to hide what has gone on by crying
“Discovery dispute!” “Contacting my client!”
150.

Far from being “vexatious”, since being admitted to the bar in 1978, Mrs.

Hoggatt has reached amicable settlements in every case except two. Both were
dismissed by this district court, by the Honorable Michael Mills. Both of Mrs.
Hoggatt’s civil cases that were dismissed sought to amend the initial complaint to
add an obstructive Mississippi attorney to the complaint.
151.

And even more coincidental, in both civil actions, a video exhibit of attorney

John Wheeler made by Mrs. Hoggatt was tendered as evidence.
152.

In the first instance of dismissal, in a case years prior to this civil action, Mrs.

Hoggatt, representing the plaintiffs, used the video exhibit of attorney John
Wheeler to demonstrate a pattern of denial of statutory rights of poor patients, by

38

the largest rural health care system in America, North Mississippi Medical
Center. See, https://www.youtube.com/watch?v=I6q6xMtgqxA.
153.

In this civil action, it was the Respondent, Allstate, that offered the same video

exhibit video exhibit of attorney John Wheeler, claiming the video showed Mrs.
Hoggatt’s bad acts towards lawyers.
154.

The Wheeler video eventually became a teaching tool for Continuing Legal

Education, Freedom Song, showing what a lawyer ought not to do, i.e., attempt to
obstruct civil litigation by denying citizens what they are due.
155.

Like attorneys for Allstate and its agents did in this civil action.

156.

The United States Court of Appeals for the fifth Circuit has decided an

important federal question in a way that conflicts with or has so far departed from
the accepted and usual course of judicial proceedings, and has given official
permission or approval for punishment for exercise of the Hoggatts’ First
Amendment right to report criminal conduct. Such a departure by a lower court
calls for an exercise of this Court’s supervisory power.
157.

By deciding that a consumer’s absolute right to have a federally mandated

Section 612 of the Fair Credit Reporting Act “notice of non-renewal” with accurate
information, so the consumer can investigate, and if necessary, dispute the reports
upon which such an important matter as cancellation of insurance is allegedly
based, may be somehow turned into “a discovery issue”, the United States Court
of Appeals for the Fifth Circuit has decided an important question of federal law
that has not been, but should be, settled by this Court.

39

Conclusion
Respectfully submitted, this the 19th day of July, 2021.

/s/ Victoria Jean Johnson Hoggatt
Attorney at Law
60094 Tubb Drive
Amory, MS 38821-9164
(830) 570-1299

